HHS/OIG, Audit - "Review of Expenditures Reported by the Saint Hope Foundation for the Period March 1, 2001 through February 28, 2002 Under Title I of the Ryan White Comprehensive Aids Resources Emergency (Care) Act," (A-06-02-00048)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Expenditures Reported by the Saint Hope Foundation for the
Period March 1, 2001 through February 28, 2002 Under Title I of the Ryan White
Comprehensive Aids Resources Emergency (Care) Act," (A-06-02-00048)
March 5, 2003
Complete Text of Report is available in PDF format
(8.27 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether St. Hope Foundation (Foundation)
spent Ryan White Title I funds in accordance with federal guidelines during
the period March 1, 2001 through February 28, 2002.  The Foundation provided
services in accordance with the terms of the Title I grant award and the contracts
with the Houston, Texas eligible metropolitan area (EMA).  However, we
identified unsupported costs totaling $8,369, and further determined that the
Foundations general ledger did not reconcile to its final financial report.
In response to our findings, the Foundation provided support for some
of the questioned costs, provided explanation for the reconciliation discrepancy,
and will submit a revised final financial report to the EMA.  The Foundation
reclassified the remainder of the questioned costs $5,367 as unrestricted funds,
and therefore does not believe a refund of this amount is due.  However,
since the Foundation already received reimbursement for this unsupported amount,
we believe that a refund through the EMA is still due.